                 Department of Veterans Affairs
                 Office of Inspector General


                   Office of Healthcare Inspections

Report No. 14-00658-121




    Combined Assessment Program 

            Review of the 

   VA Loma Linda Healthcare System 

        Loma Linda, California 





April 10, 2014

                       Washington, DC 20420
To Report Suspected Wrongdoing in VA Programs and Operations 

                    Telephone: 1-800-488-8244 

                   E-Mail: vaoighotline@va.gov

         (Hotline Information: www.va.gov/oig/hotline)

                                CAP Review of the VA Loma Linda Healthcare System, Loma Linda, CA



                                              Glossary
                 ACA            Affordable Care Act
                 AVS            after visit summary
                 CAP            Combined Assessment Program
                 CLC            community living center
                 EHR            electronic health record
                 EOC            environment of care
                 facility       VA Loma Linda Healthcare System
                 FY             fiscal year
                 MEC            Medical Executive Committee
                 MH             mental health
                 NA             not applicable
                 NM             not met
                 OIG            Office of Inspector General
                 PRC            Peer Review Committee
                 QM             quality management
                 VHA            Veterans Health Administration
                 VISN           Veterans Integrated Service Network




VA OIG Office of Healthcare Inspections
                                         CAP Review of the VA Loma Linda Healthcare System, Loma Linda, CA



                                            Table of Contents 

                                                                                                                             Page 

Executive Summary ...................................................................................................              i


Objectives and Scope ................................................................................................              1

  Objectives ...............................................................................................................       1

  Scope......................................................................................................................      1


Reported Accomplishments......................................................................................                     2


Results and Recommendations ................................................................................                       4

  QM ..........................................................................................................................    4

  EOC ........................................................................................................................     7

  Medication Management.........................................................................................                  10

  Coordination of Care ...............................................................................................            11

  Nurse Staffing .........................................................................................................        12

  Pressure Ulcer Prevention and Management .........................................................                              13

  CLC Resident Independence and Dignity ...............................................................                           15


Appendixes
  A. Facility Profile ....................................................................................................        17

  B. Strategic Analytics for Improvement and Learning ............................................                                18

  C. VISN Director Comments ..................................................................................                    21

  D. Facility Director Comments ...............................................................................                   22

  E. OIG Contact and Staff Acknowledgments .........................................................                              30

  F. Report Distribution .............................................................................................            31

  G. Endnotes ...........................................................................................................         32





VA OIG Office of Healthcare Inspections
                                CAP Review of the VA Loma Linda Healthcare System, Loma Linda, CA



                                Executive Summary 

Review Purpose: The purpose of the review was to evaluate selected health care
facility operations, focusing on patient care quality and the environment of care, and to
provide crime awareness briefings.          We conducted the review the week of
February 3, 2014.

Review Results: The review covered seven activities.                           We    made     no
recommendations in the following activity:

 Medication Management

The facility’s reported accomplishments were an innovative geriatric medical health
model, Joint Commission recognition, Affordable Care Act initiatives, and a
patient-centered after visit summary.

Recommendations: We made recommendations in the following six activities:
Quality Management: Include a clinical representative from Medicine Service as a
member of the Blood Usage Review Sub-Committee.

Environment of Care: Include environment of care findings from community based
outpatient clinic inspections in the facility’s Environment of Care Committee minutes.
Ensure patient care areas are clean, address and resolve water leaks and structural
damage timely, and store clean and dirty items separately. Remove expired medical
supplies and medications from patient care areas. Alarm all emergency exits on the
locked mental health unit.

Coordination of Care: Provide discharge instructions to patients and/or caregivers,
document provision in the electronic health records, and validate patients’ and/or
caregivers’ understanding of the instructions provided. Ensure patients receive ordered
aftercare services.

Nurse Staffing: Ensure that the unit-based expert panels include all required members
and that all members receive the required training prior to the next annual staffing plan
reassessment. Reassess the target nursing hours per patient day for unit 2NE.

Pressure Ulcer Prevention and Management: Perform and document a patient skin
inspection and risk scale upon transfer. Accurately document location, stage, risk scale
score, and date pressure ulcer acquired for all patients with pressure ulcers. Provide
and document pressure ulcer education for patients at risk for and with pressure ulcers
and/or their caregivers. Ensure designated employees receive pressure ulcer training.

Community Living Center Resident Independence and Dignity: Complete and document
restorative nursing services according to clinician orders and/or residents’ care plans.




VA OIG Office of Healthcare Inspections                                                         i
                                CAP Review of the VA Loma Linda Healthcare System, Loma Linda, CA


Comments
The Veterans Integrated Service Network and Facility Directors agreed with the
Combined Assessment Program review findings and recommendations and provided
acceptable improvement plans. (See Appendixes C and D, pages 21–29, for the full
text of the Directors’ comments.) We consider recommendation 6 closed. We will
follow up on the planned actions for the open recommendations until they are
completed.




                                                          JOHN D. DAIGH, JR., M.D. 

                                                         Assistant Inspector General for 

                                                            Healthcare Inspections





VA OIG Office of Healthcare Inspections                                                         ii
                                CAP Review of the VA Loma Linda Healthcare System, Loma Linda, CA



                              Objectives and Scope 

Objectives
CAP reviews are one element of the OIG’s efforts to ensure that our Nation’s veterans
receive high quality VA health care services. The objectives of the CAP review are to:

   	 Conduct recurring evaluations of selected health care facility operations, focusing
      on patient care quality and the EOC.

   	 Provide crime awareness briefings to increase employee understanding of the
      potential for program fraud and the requirement to refer suspected criminal
      activity to the OIG.

Scope
The scope of the CAP review is limited. Serious issues that come to our attention that
are outside the scope will be considered for further review separate from the CAP
process and may be referred accordingly.

For this review, we examined selected clinical and administrative activities to determine
whether facility performance met requirements related to patient care quality and the
EOC. In performing the review, we inspected selected areas, conversed with managers
and employees, and reviewed clinical and administrative records. The review covered
the following seven activities:

   	 QM

   	 EOC

   	 Medication Management

   	 Coordination of Care

   	 Nurse Staffing

   	 Pressure Ulcer Prevention and Management

   	 CLC Resident Independence and Dignity

We have listed the general information reviewed for each of these activities. Some of
the items listed may not have been applicable to this facility because of a difference in
size, function, or frequency of occurrence.

The review covered facility operations for FY 2013 and FY 2014 through
February 3, 2014, and was done in accordance with OIG standard operating procedures
for CAP reviews.      We also asked the facility to provide the status on the


VA OIG Office of Healthcare Inspections                                                        1
                                      CAP Review of the VA Loma Linda Healthcare System, Loma Linda, CA


recommendations we made in our previous CAP report (Combined Assessment
Program Review of the VA Loma Linda Healthcare System, Loma Linda, California,
Report No. 09-02287-215, September 17, 2009).

During this review, we presented crime awareness briefings for 492 employees. These
briefings covered procedures for reporting suspected criminal activity to the OIG and
included case-specific examples illustrating procurement fraud, conflicts of interest, and
bribery.

Additionally, we surveyed employees regarding patient safety and quality of care at the
facility. An electronic survey was made available to all facility employees, and
193 responded. We shared summarized results with facility managers.

In this report, we make recommendations for improvement. Recommendations pertain
to issues that are significant enough to be monitored by the OIG until corrective actions
are implemented.

                              Reported Accomplishments

Innovative Geriatric Primary Care Medical Health Model 

The facility reported to be the only VA medical center to activate the geriatric primary
care medical health model.            The development and implementation of this
interdisciplinary clinic that combines the skills of both geriatrics and psychiatry staff has
greatly enhanced the experience of veterans presenting with complex medical issues,
including early dementia. Championing the effectiveness of the Patient Aligned Care
Team model, the clinic standardized consult management business practices across all
clinics, which allowed for a decrease in the more than 18,000 open consults greater
than 90 days to 1,400 by the end of FY 2013. The clinic also decreased primary care
walk-ins by 30 percent by using secure messaging, automated prescription refills, and a
primary care call center.

Joint Commission Recognition
The facility was recognized as a Top Performer on Key Quality Measures® for 2012.
This recognition distinguishes the facility for using evidence-based care processes
closely linked to positive patient outcomes. The facility was recognized for attaining and
sustaining cumulative performance of 95 percent or above across all reported
accountability measures for heart attack, heart failure, pneumonia, and surgical care.

ACA Initiatives
In October 2013, VHA’s Office of Policy and Planning recognized the facility’s ACAa
initiatives as best practices. In its effort to educate staff and veterans about the ACA,
the facility created “behind the badge cards” for each employee, which contain key
a
    The federal health reform legislation known as the ACA was signed into law by the President in 2010.


VA OIG Office of Healthcare Inspections                                                                    2
                                CAP Review of the VA Loma Linda Healthcare System, Loma Linda, CA


information regarding the ACA. Additionally, the facility hosted in-person forums for
veterans to learn and obtain information about the ACA.

Patient-Centered AVS
The facility’s informatics team developed an automated AVS, a clinical summary of
outpatient visits, through a grant from the VA Center for Innovation. The AVS is
intended to promote patient-centered outpatient care, enhance provider-patient
communications, engage patients in their care, and improve recall of medical
instructions. Through integration with the EHR system, data is automatically uploaded
to the AVS to efficiently create a printout of the clinical data and treatment plan from the
office visit. The AVS patient printout includes elements that meet “meaningful use”
requirements of the Centers for Medicare and Medicaid Services. In addition, the AVS
software provides options for large print and a translator to transform medical jargon
into patient-friendly terms. The AVS has been implemented in the primary care clinics
at the facility and has been exported to six additional sites. It has been endorsed by the
VA Innovation Selection Board to the VA Under Secretary for Health who has approved
funding to deploy the AVS nationally.




VA OIG Office of Healthcare Inspections                                                        3
                                          CAP Review of the VA Loma Linda Healthcare System, Loma Linda, CA



                          Results and Recommendations 

QM
The purpose of this review was to determine whether facility senior managers actively supported
and appropriately responded to QM efforts and whether the facility met selected requirements
within its QM program.1

We conversed with senior managers and key QM employees, and we evaluated meeting
minutes, EHRs, and other relevant documents. The table below shows the areas reviewed for
this topic. The area marked as NM did not meet applicable requirements and needed
improvement. Any items that did not apply to this facility are marked NA.

NM                     Areas Reviewed                                        Findings
       There was a senior-level committee/group
       responsible for QM/performance improvement
       that met regularly.
        There was evidence that outlier data was
          acted upon.
        There was evidence that QM, patient
          safety, and systems redesign were
          integrated.
       The protected peer review process met
       selected requirements:
        The PRC was chaired by the Chief of Staff
          and included membership by applicable
          service chiefs.
        Actions from individual peer reviews were
          completed and reported to the PRC.
        The PRC submitted quarterly summary
          reports to the MEC.
        Unusual findings or patterns were
          discussed at the MEC.
       Focused Professional Practice Evaluations for
       newly hired licensed independent practitioners
       were initiated and completed, and results
       were reported to the MEC.
 NA    Specific telemedicine services met selected
       requirements:
        Services were properly approved.
        Services were provided and/or received by
          appropriately privileged staff.
        Professional practice evaluation information
          was available for review.




VA OIG Office of Healthcare Inspections                                                                  4
                                          CAP Review of the VA Loma Linda Healthcare System, Loma Linda, CA


NM               Areas Reviewed (continued)                                  Findings
       Observation bed use met selected
       requirements:
        Local policy included necessary elements.
        Data regarding appropriateness of
          observation bed usage was gathered.
        If conversions to acute admissions were
          consistently 30 percent or more,
          observation criteria and utilization were
          reassessed timely.
       Staff performed continuing stay reviews on at
       least 75 percent of patients in acute beds.
       The process to review resuscitation events
       met selected requirements:
        An interdisciplinary committee was
          responsible for reviewing episodes of care
          where resuscitation was attempted:
        Resuscitation event reviews included
          screening for clinical issues prior to events
          that may have contributed to the
          occurrence of the code.
        Data were collected that measured
          performance in responding to events.
       The surgical review process met selected
       requirements:
        An interdisciplinary committee with
          appropriate leadership and clinical
          membership met monthly to review surgical
          processes and outcomes.
        All surgical deaths were reviewed.
        Additional data elements were routinely
          reviewed.
       Critical incidents reporting processes were
       appropriate.
       The process to review the quality of entries in
       the EHR met selected requirements:
        A committee was responsible to review
          EHR quality.
        Data were collected and analyzed at least
          quarterly.
        Reviews included data from most services
          and program areas.
       The policy for scanning non-VA care
       documents met selected requirements.




VA OIG Office of Healthcare Inspections                                                                  5
                                          CAP Review of the VA Loma Linda Healthcare System, Loma Linda, CA


NM              Areas Reviewed (continued)                                  Findings
 X     The process to review blood/transfusions           The newly established Blood Usage Review
       usage met selected requirements:                    Sub-Committee did not include a clinical
        A committee with appropriate clinical             representative from Medicine Service as a
          membership met at least quarterly to review      member.
          blood/transfusions usage.
        Additional data elements were routinely
          reviewed.
       Overall, if significant issues were identified,
       actions were taken and evaluated for
       effectiveness.
       Overall, senior managers were involved in
       performance improvement over the past
       12 months.
       Overall, the facility had a comprehensive,
       effective QM/performance improvement
       program over the past 12 months.
       The facility met any additional elements
       required by VHA or local policy.

Recommendation

1. We recommended that the Blood Usage Review Sub-Committee include a clinical
representative from Medicine Service as a member.




VA OIG Office of Healthcare Inspections                                                                  6
                                          CAP Review of the VA Loma Linda Healthcare System, Loma Linda, CA


EOC
The purpose of this review was to determine whether the facility maintained a clean and safe
health care environment in accordance with applicable requirements and whether selected
requirements in radiology and acute MH were met.2

We inspected selected inpatient units (a medical intensive care, 2NE, 3SE, and 4SW), primary
care clinics, the CLC (2 pods), and the emergency and radiology departments. Additionally, we
reviewed relevant documents, conversed with key employees and managers, and reviewed
28 employee training records (10 radiology employees, 11 acute MH unit employees,
5 Multidisciplinary Safety Inspection Team members, and 2 occasional acute MH unit
employees). The table below shows the areas reviewed for this topic. The areas marked as
NM did not meet applicable requirements and needed improvement. Any items that did not
apply to this facility are marked NA.

NM           Areas Reviewed for General EOC                                   Findings
 X     EOC Committee minutes reflected sufficient        Six months of EOC Committee minutes
       detail regarding identified deficiencies,         reviewed:
       corrective actions taken, and tracking of          Minutes did not consistently reflect EOC
       corrective actions to closure.                       findings from community based outpatient
                                                            clinic inspections.
       An infection prevention risk assessment was
       conducted, and actions were implemented to
       address high-risk areas.
       Infection Prevention/Control Committee
       minutes documented discussion of identified
       problem areas and follow-up on implemented
       actions and included analysis of surveillance
       activities and data.
       Fire safety requirements were met.
 X     Environmental safety requirements were met.        Six of the eight patient care areas were not
                                                           clean.
                                                          There was water leakage and water damage
                                                           in one shower room and two public restrooms.
 X     Infection prevention requirements were met.        In two of the eight patient care areas, clean
                                                           and dirty items were not stored separately.
                                                          In three of the eight patient care areas, we
                                                           found expired medical supplies.
 X     Medication safety and security requirements        We found expired medications in five of the
       were met.                                           eight patient care areas.
       Auditory privacy requirements were met.
       The facility complied with any additional
       elements required by VHA, local policy, or
       other regulatory standards.




VA OIG Office of Healthcare Inspections                                                                  7
                                          CAP Review of the VA Loma Linda Healthcare System, Loma Linda, CA


NM             Areas Reviewed for Radiology                                  Findings
       The facility had a Radiation Safety Committee,
       the committee met at least every 6 months
       and established a quorum for meetings, and
       the Radiation Safety Officer attended
       meetings.
       Radiation Safety Committee meeting minutes
       reflected discussion of any problematic areas,
       corrective actions taken, and tracking of
       corrective actions to closure.
       Facility policy addressed frequencies of
       equipment inspection, testing, and
       maintenance.
       The facility had policy for the safe use of
       fluoroscopic equipment.
       The facility Director appointed a Radiation
       Safety Officer to direct the radiation safety
       program.
       X-ray and fluoroscopy equipment items were
       tested by a qualified medical physicist before
       placed in service and annually thereafter, and
       quality control was conducted on fluoroscopy
       equipment in accordance with facility
       policy/procedure.
       Designated employees received initial
       radiation safety training and training thereafter
       with the frequency required by local policy,
       and radiation exposure monitoring was
       completed for employees within the past year.
       Environmental safety requirements in x-ray
       and fluoroscopy were met.
 X     Infection prevention requirements in x-ray and       Two fluoroscopy rooms were not clean.
       fluoroscopy were met.
 NA    Medication safety and security requirements
       in x-ray and fluoroscopy were met.
       Sensitive patient information in x-ray and
       fluoroscopy was protected.
       The facility complied with any additional
       elements required by VHA, local policy, or
       other regulatory standards.
               Areas Reviewed for Acute MH
       MH EOC inspections were conducted every
       6 months.
       Corrective actions were taken for
       environmental hazards identified during
       inspections, and actions were tracked to
       closure.




VA OIG Office of Healthcare Inspections                                                                  8
                                          CAP Review of the VA Loma Linda Healthcare System, Loma Linda, CA


NM      Areas Reviewed for Acute MH (continued)                              Findings
       MH unit staff, Multidisciplinary Safety
       Inspection Team members, and occasional
       unit workers received training on how to
       identify and correct environmental hazards,
       content and proper use of the MH EOC
       Checklist, and VA’s National Center for
       Patient Safety study of suicide on psychiatric
       units.
 X     The locked MH unit(s) was/were in                  Emergency exits were not alarmed.
       compliance with MH EOC Checklist safety
       requirements or an abatement plan was in
       place.
 X     The facility complied with any additional          Floors were in need of cleaning and buffing.
       elements required by VHA, local policy, or
       other regulatory standards.

Recommendations

2. We recommended that processes be strengthened to ensure that EOC Committee minutes
consistently reflect EOC findings from community based outpatient clinic inspections.

3. We recommended that processes be strengthened to ensure that patient care areas are
clean and that water leaks and subsequent structural damage are addressed and resolved
timely and that compliance be monitored.

4. We recommended that processes be strengthened to ensure that clean and dirty items are
stored separately and that compliance be monitored.

5. We recommended that processes be strengthened to ensure that expired medical supplies
and medications are removed from patient care areas and that compliance be monitored.

6. We recommended that all emergency exits on the locked MH unit be alarmed.




VA OIG Office of Healthcare Inspections                                                                   9
                                          CAP Review of the VA Loma Linda Healthcare System, Loma Linda, CA


Medication Management
The purpose of this review was to determine whether the appropriate clinical oversight and
education were provided to patients discharged with orders for fluoroquinolone oral antibiotics.3

We reviewed relevant documents and conversed                    with key managers and employees.
Additionally, we reviewed the EHRs of 35 randomly              selected inpatients discharged on 1 of
3 selected oral antibiotics. The table below shows the         areas reviewed for this topic. Any items
that did not apply to this facility are marked NA. The         facility generally met requirements. We
made no recommendations.

NM                      Areas Reviewed                                       Findings
       Clinicians conducted inpatient learning
       assessments within 24 hours of admission or
       earlier if required by local policy.
       If learning barriers were identified as part of
       the learning assessment, medication
       counseling was adjusted to accommodate the
       barrier(s).
       Patient renal function was considered in
       fluoroquinolone dosage and frequency.
       Providers completed discharge progress
       notes or discharge instructions, written
       instructions were provided to
       patients/caregivers, and EHR documentation
       reflected that the instructions were
       understood.
       Patients/caregivers were provided a written
       medication list at discharge, and the
       information was consistent with the dosage
       and frequency ordered.
       Patients/caregivers were offered medication
       counseling, and this was documented in
       patient EHRs.
       The facility established a process for
       patients/caregivers regarding whom to notify
       in the event of an adverse medication event.
       The facility complied with any additional
       elements required by VHA or local policy.




VA OIG Office of Healthcare Inspections                                                                 10
                                          CAP Review of the VA Loma Linda Healthcare System, Loma Linda, CA


Coordination of Care
The purpose of this review was to evaluate discharge planning for patients with selected
aftercare needs.4

We reviewed relevant documents, and we conversed with key employees. Additionally, we
reviewed the EHRs of 33 randomly selected patients with specific diagnoses who were
discharged from July 1, 2012, through June 30, 2013. The table below shows the areas
reviewed for this topic. The areas marked as NM did not meet applicable requirements and
needed improvement. Any items that did not apply to this facility are marked NA.

NM                     Areas Reviewed                                        Findings
       Patients’ post-discharge needs were
       identified, and discharge planning addressed
       the identified needs.
X      Clinicians provided discharge instructions to     EHRs did not contain evidence that patients’
       patients and/or caregivers and validated their    and/or caregivers were provided with discharge
       understanding.                                    instructions for:
                                                          Wound care/dressing changes—three of six
                                                            patients
                                                          Prosthetics—5 of 13 patients
                                                         EHRs did not contain documentation that
                                                         clinicians validated patients’ and/or caregivers
                                                         understanding of discharge instructions for:
                                                          Prosthetics—four of eight patients
X      Patients received the ordered aftercare            Three of the 19 patients who had services
       services and/or items within the                      ordered (follow-up appointments) did not
       ordered/expected timeframe.                           receive them.
       Patients’ and/or caregivers’ knowledge and
       learning abilities were assessed during the
       inpatient stay.
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendations

7. We recommended that processes be strengthened to ensure that clinicians provide
discharge instructions to patients and/or caregivers and document this in the EHRs and that
they validate patients’ and/or caregivers’ understanding of the discharge instructions they
provided and that compliance be monitored.

8. We recommended that processes be strengthened to ensure that patients receive ordered
aftercare services.




VA OIG Office of Healthcare Inspections                                                                     11
                                          CAP Review of the VA Loma Linda Healthcare System, Loma Linda, CA


Nurse Staffing
The purpose of this review was to determine whether the facility implemented the staffing
methodology for nursing personnel and completed annual reassessments and to evaluate nurse
staffing on three inpatient units (acute medical/surgical, long-term care, and MH).5

We reviewed facility and unit-based expert panel documents and 29 training files, and we
conversed with key employees. Additionally, we reviewed the actual nursing hours per patient
day for 3 randomly selected units—acute medical unit 4SW, CLC unit 1SO, and MH
unit 2NE—for 50 randomly selected days between October 1, 2012, and September 30, 2013.
The table below shows the areas reviewed for this topic. The areas marked as NM did not meet
applicable requirements and needed improvement. Any items that did not apply to this facility
are marked NA.

NM                      Areas Reviewed                                       Findings
       The facility either implemented or reassessed
       a nurse staffing methodology within the
       expected timeframes.
       The facility expert panel followed the required
       processes and included the required
       members.
 X     The unit-based expert panels followed the          Units 2NE’s and 4SW’s unit-based expert
       required processes and included the required        panels did not include health technicians or
       members.                                            nursing assistants.
 X     Members of the expert panels completed the         Four of the 18 members of the unit-based
       required training.                                  expert panels had not completed the required
                                                           training.
 X     The actual nursing hours per patient day met       Unit 2NE’s average actual nursing hours per
       or exceeded the target nursing hours per            patient day were statistically significantly
       patient day.                                        below the target.
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendations

9. We recommended that the annual staffing plan reassessment process ensures that unit
2NE’s and unit 4SW’s unit-based expert panels include all required members and that all
members of the unit-based expert panels receive the required training prior to the next annual
staffing plan reassessment.

10. We recommended that nurse managers reassess the target nursing hours per patient day
for unit 2NE to more accurately plan for staffing and evaluate the actual staffing provided.




VA OIG Office of Healthcare Inspections                                                                 12
                                          CAP Review of the VA Loma Linda Healthcare System, Loma Linda, CA


Pressure Ulcer Prevention and Management
The purpose of this review was to determine whether acute care clinicians provided
comprehensive pressure ulcer prevention and management.6

We reviewed relevant documents, 26 EHRs of patients with pressure ulcers (10 patients with
hospital-acquired pressure ulcers, 10 patients with community-acquired pressure ulcers, and
6 patients with pressure ulcers at the time of our onsite visit), and 10 employee training records.
Additionally, we inspected three patient rooms. The table below shows the areas reviewed for
this topic. The areas marked as NM did not meet applicable requirements and needed
improvement. Any items that did not apply to this facility are marked NA.

NM                     Areas Reviewed                                        Findings
       The facility had a pressure ulcer prevention
       policy, and it addressed prevention for all
       inpatient areas and for outpatient care.
       The facility had an interprofessional pressure
       ulcer committee, and the membership
       included a certified wound care specialist.
       Pressure ulcer data was analyzed and
       reported to facility executive leadership.
       Complete skin assessments were performed
       within 24 hours of acute care admissions.
 X     Skin inspections and risk scales were              Four of the 11 applicable EHRs did not
       performed upon transfer, change in condition,       contain documentation that a skin inspection
       and discharge.                                      and risk scale were performed upon transfer
                                                           between units or departments.
 X     Staff were generally consistent in                 In 6 of the 26 EHRs, staff did not consistently
       documenting location, stage, risk scale score,      document the location, stage, risk scale
       and date acquired.                                  score, and/or date acquired.
       Required activities were performed for
       patients determined to be at risk for pressure
       ulcers and for patients with pressure ulcers.
       Required activities were performed for
       patients determined to not be at risk for
       pressure ulcers.
       For patients at risk for and with pressure
       ulcers, interprofessional treatment plans were
       developed, interventions were recommended,
       and EHR documentation reflected that
       interventions were provided.
       If the patient’s pressure ulcer was not healed
       at discharge, a wound care follow-up plan was
       documented, and the patient was provided
       appropriate dressing supplies.




VA OIG Office of Healthcare Inspections                                                                  13
                                          CAP Review of the VA Loma Linda Healthcare System, Loma Linda, CA


NM             Areas Reviewed (continued)                                     Findings
 X     The facility defined requirements for patient     Facility pressure ulcer patient and caregiver
       and caregiver pressure ulcer education, and       education requirements reviewed:
       education on pressure ulcer prevention and         For 8 of the applicable 18 patients at risk
       development was provided to those at risk for        for/with a pressure ulcer, EHRs did not
       and with pressure ulcers and/or their                contain evidence that education was
       caregivers.                                          provided.
 X     The facility defined requirements for staff       Facility pressure ulcer staff education
       pressure ulcer education, and acute care staff    requirements reviewed:
       received training on how to administer the         Five employee training records did not
       pressure ulcer risk scale, conduct the              contain evidence of how to administer the
       complete skin assessment, and accurately            pressure ulcer risk scale, how to conduct a
       document findings.                                  complete skin assessment, and how to
                                                           accurately document findings.
       The facility complied with selected fire and
       environmental safety, infection prevention,
       and medication safety and security
       requirements in pressure ulcer patient rooms.
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendations

11. We recommended that processes be strengthened to ensure that acute care staff perform
and document a patient skin inspection and risk scale upon transfer and that compliance be
monitored.

12. We recommended that processes be strengthened to ensure that acute care staff
accurately document location, stage, risk scale score, and date pressure ulcer acquired for all
patients with pressure ulcers and that compliance be monitored.

13. We recommended that processes be strengthened to ensure that acute care staff provide
and document pressure ulcer education for patients at risk for and with pressure ulcers and/or
their caregivers and that compliance be monitored.

14. We recommended that processes be strengthened to ensure that designated employees
receive training on how to administer the pressure ulcer risk scale, how to conduct a complete
skin assessment, and how to accurately document findings and that compliance be monitored.




VA OIG Office of Healthcare Inspections                                                                  14
                                          CAP Review of the VA Loma Linda Healthcare System, Loma Linda, CA


CLC Resident Independence and Dignity
The purpose of this review was to determine whether VHA facilities provided CLC restorative
nursing services and complied with selected nutritional management and dining service
requirements to assist CLC residents in maintaining their optimal level of functioning,
independence, and dignity.7

We reviewed the EHRs of 10 residents receiving restorative nursing services. We also
observed 2 residents during 2 meal periods, reviewed 10 employee training/competency records
and other relevant documents, and conversed with key employees. The table below shows the
areas reviewed for this topic. The areas marked as NM did not meet applicable requirements
and needed improvement. Any items that did not apply to this facility are marked NA.

NM                      Areas Reviewed                                       Findings
       The facility offered restorative nursing
       services.
 X     Facility staff completed and documented            In six EHRs, there was no documentation that
       restorative nursing services, including active      facility staff completed restorative nursing
       and passive range of motion, bed mobility,          services according to clinician orders and/or
       transfer, and walking activities, according to      residents’ care plans.
       clinician orders and residents’ care plans.        In four EHRs, the restorative nursing goals for
                                                           the identified restorative nursing service(s)
                                                           ordered by the provider were not documented
                                                           in the resident care plan.
       Resident progress towards restorative nursing
       goals was documented, and interventions
       were modified as needed to promote the
       resident’s accomplishment of goals.
 NA    When restorative nursing services were care
       planned but were not provided or were
       discontinued, reasons were documented in
       the EHR.
       If residents were discharged from physical
       therapy, occupational therapy, or
       kinesiotherapy, there was hand-off
       communication between Physical Medicine
       and Rehabilitation Service and the CLC to
       ensure that restorative nursing services
       occurred.
       Training and competency assessment were
       completed for staff who performed restorative
       nursing services.
       The facility complied with any additional
       elements required by VHA or local policy.




VA OIG Office of Healthcare Inspections                                                                 15
                                          CAP Review of the VA Loma Linda Healthcare System, Loma Linda, CA


NM         Areas Reviewed for Assistive Eating                                Findings
                Devices and Dining Service
       Care planned/ordered assistive eating devices
       were provided to residents at meal times.
       Required activities were performed during
       resident meal periods.
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendation

15. We recommended that processes be strengthened to ensure that staff complete and
document restorative nursing services according to clinician orders and/or residents’ care plans
and that compliance be monitored.




VA OIG Office of Healthcare Inspections                                                                 16
                                       CAP Review of the VA Loma Linda Healthcare System, Loma Linda, CA
                                                                                             Appendix A


             Facility Profile (Loma Linda/605) FY 2014 through
                                February 2014b
Type of Organization                                                            Tertiary
Complexity Level                                                                1b-High complexity
Affiliated/Non-Affiliated                                                       Affiliated
Total Medical Care Budget in Millions                                           $479.4
Number of:
    Unique Patients                                                            49,466
    Outpatient Visits                                                          252,204
    Unique Employeesc                                                          2,215
Type and Number of Operating Beds
(December 2013):
    Hospital                                                                   159
    CLC                                                                        81
    MH                                                                         26
Average Daily Census (January 2014):
    Hospital                                                                   127
    CLC                                                                        74
    MH                                                                         20
Number of Community Based Outpatient Clinics                                    5
Location(s)/Station Number(s)                                                   Victorville/605GA
                                                                                Murrieta/605GB
                                                                                Palm Dessert/605GC
                                                                                Corona/605GD
                                                                                Rancho Cucamonga/605GE
VISN Number                                                                     22




b
    All data is for FY 2014 through February 2014 except where noted.

c
    Unique employees involved in direct medical care (cost center 8200) from most recent pay period. 



VA OIG Office of Healthcare Inspections                                                                  17
                                                                CAP Review of the VA Loma Linda Healthcare System, Loma Linda, CA
                                                                                                                      Appendix B

                                    Strategic Analytics for Improvement and Learning (SAIL)d




d
    Metric definitions follow the graphs.



VA OIG Office of Healthcare Inspections                                                                                       18
                                                      CAP Review of the VA Loma Linda Healthcare System, Loma Linda, CA



                                          Scatter Chart 





VA OIG Office of Healthcare Inspections                                                                             19
                                                                                                 CAP Review of the VA Loma Linda Healthcare System, Loma Linda, CA


                                                                         Metric Definitions
 Measure                       Definition                                                                           Desired direction
 ACSC Hospitalization          Ambulatory care sensitive condition hospitalizations (observed to expected ratio)    A lower value is better than a higher value
 Adjusted LOS                  Acute care risk adjusted length of stay                                              A lower value is better than a higher value
 Call Center Responsiveness    Average speed of call center responded to calls in seconds                           A lower value is better than a higher value
 Call Responsiveness           Call center speed in picking up calls and telephone abandonment rate                 A lower value is better than a higher value
 Complications                 Acute care risk adjusted complication ratio                                          A lower value is better than a higher value
 Efficiency                    Overall efficiency measured as 1 divided by SFA (Stochastic Frontier Analysis)       A higher value is better than a lower value
 Employee Satisfaction         Overall satisfaction with job                                                        A higher value is better than a lower value
 HC Assoc Infections           Health care associated infections                                                    A lower value is better than a higher value
 HEDIS                         Outpatient performance measure (HEDIS)                                               A higher value is better than a lower value
 MH Status                     MH status (outpatient only, the Veterans RAND 12 Item Health Survey)                 A higher value is better than a lower value
 MH Wait Time                  MH wait time for new and established patients (top 50 clinics)                       A higher value is better than a lower value
 Oryx                          Inpatient performance measure (ORYX)                                                 A higher value is better than a lower value
 Physical Health Status        Physical health status (outpatient only, the Veterans RAND 12 item Health Survey)    A higher value is better than a lower value
 Primary Care Wait Time        Primary care wait time for new and established patients (top 50 clinics)             A higher value is better than a lower value
 PSI                           Patient safety indicator                                                             A lower value is better than a higher value
 Pt Satisfaction               Overall rating of hospital stay (inpatient only)                                     A higher value is better than a lower value
 RN Turnover                   Registered nurse turnover rate                                                       A lower value is better than a higher value
 RSMR-AMI                      30-day risk standardized mortality rate for acute myocardial infarction              A lower value is better than a higher value
 RSMR-CHF                      30-day risk standardized mortality rate for congestive heart failure                 A lower value is better than a higher value
 RSMR-Pneumonia                30-day risk standardized mortality rate for pneumonia                                A lower value is better than a higher value
 RSRR-AMI                      30-day risk standardized readmission rate for acute myocardial infarction            A lower value is better than a higher value
 RSRR-CHF                      30-day risk standardized readmission rate for congestive heart failure               A lower value is better than a higher value
 RSRR-Pneumonia                30-day risk standardized readmission rate for pneumonia                              A lower value is better than a higher value
 SMR                           Acute care in-hospital standardized mortality ratio                                  A lower value is better than a higher value
 SMR30                         Acute care 30-day standardized mortality ratio                                       A lower value is better than a higher value
 Specialty Care Wait Time      Specialty care wait time for new and established patients (top 50 clinics)           A higher value is better than a lower value




VA OIG Office of Healthcare Inspections                                                                                                                           20
                                CAP Review of the VA Loma Linda Healthcare System, Loma Linda, CA
                                                                                      Appendix C
                              VISN Director Comments



               Department of
               Veterans Affairs                                  Memorandum


           Date:       March 25, 2014

          From:        Director, Desert Pacific Healthcare Network (10N22)

       Subject: 	      CAP Review of the VA Loma Linda Healthcare System,
                       Loma Linda, CA

             To: 	     Director, Los Angeles Office of Healthcare Inspections
                       (54LA)

                       Director, Management Review Service (VHA 10AR MRS
                       OIG CAP CBOC)

       1. I concur with the findings and recommendations in the report of the
          CAP Review of the VA Loma Linda Healthcare System, Loma Linda,
          CA.

       2. If you have any questions regarding our responses and actions to the
          recommendations in the report, please contact me at (562) 826-5963.




VA OIG Office of Healthcare Inspections                                                       21
                                CAP Review of the VA Loma Linda Healthcare System, Loma Linda, CA
                                                                                      Appendix D
                            Facility Director Comments



               Department of
               Veterans Affairs                                  Memorandum


           Date:       March 24, 2014

          From:        Director, VA Loma Linda Healthcare System (605/00)

       Subject:        CAP Review of the VA Loma Linda Healthcare System,
                       Loma Linda, CA

             To:       Director, Desert Pacific Healthcare Network (10N22)

       1. I concur with the Loma Linda VA Medical Center’s response and action
          plans as detailed within this report.




VA OIG Office of Healthcare Inspections                                                       22
                                CAP Review of the VA Loma Linda Healthcare System, Loma Linda, CA


                               Comments to OIG’s Report

The following Director’s comments are submitted in response to the recommendations
in the OIG report:

OIG Recommendations

Recommendation 1. We recommended that the Blood Usage Review Sub-Committee
include a clinical representative from Medicine Service as a member.

Concur

Target date for completion: April 30, 2014

Facility response: A Pulmonary Medicine physician has been added to the Committee
Charter as a member to the Blood Utilization Review (BUR) Committee. This physician
will begin attending as of April 30, 2014.

Recommendation 2. We recommended that processes be strengthened to ensure that
EOC Committee minutes consistently reflect EOC findings from community based
outpatient clinic inspections.

Concur

Target date for completion: July 30, 2014

Facility response: The Community Based Outpatient Clinic Liaison has been added as
an attendee of the EOC Committee. The Liaison will provide quarterly reports including
environment of care and CBOC facility safety activities.

In addition, the facility Safety Office will conduct annual safety audits at each CBOC and
report the results and corrective actions to the EOC Committee.

Recommendation 3. We recommended that processes be strengthened to ensure
patient care areas are clean and that water leaks and subsequent structural damage
are addressed and resolved timely and that compliance be monitored.

Concur

Target date for completion: April 30, 2014

Facility response: The facility is in the process of completing the repairs on the
congregate shower room located on 3SE.

Environmental Management Service will utilize an aggressive approach toward cleaning
all patient care areas on a daily basis. Teams made up of management and staff are
being established to complete surveillance of daily and weekly cleaning. A schedule
listing areas due to be cleaned is being revised and will be communicated to staff and


VA OIG Office of Healthcare Inspections                                                       23
                                CAP Review of the VA Loma Linda Healthcare System, Loma Linda, CA


leadership upon completion. A summary of the Teams findings will be presented each
quarter to the Quality Council.

Recommendation 4. We recommended that processes be strengthened to ensure that
clean and dirty items are stored separately and that compliance be monitored.

Concur

Target date for completion: July 15, 2014

Facility response: All issues identified during the week of the OIG CAP survey have
been corrected. The facility will strengthen the process of ensuring clean and dirty
items are stored separately by delineating a team consisting of Nursing, Infection
Control, and Environmental Management Service to identify a list of those items that are
acceptable for each type of room/storage. This Team will also set up a process and a
schedule for the Team to conduct ongoing monthly surveillance of the clean and dirty
utility rooms. Findings will be reported to Quality Council quarterly.

Recommendation 5. We recommended that processes be strengthened to ensure that
expired medical supplies and medications are removed from patient care areas and that
compliance be monitored.

Concur

Target date for completion: July 31, 2014

Facility response: All issues identified during the week of the OIG CAP survey have
been corrected. The facility will strengthen the process of ensuring that expired medical
supplies and medications are removed from patient care areas by establishing a team
consisting of Nursing, Pharmacy, and Distribution Logistics to identify a list of primary
and secondary supply locations and those services that are responsible for ongoing
inspection of the locations for outdated/near outdated supplies. Signs will be posted in
each area noting the direction in which staff should pull their supplies (for
example – stocked from the top, pull from the bottom). All staff accessing the supply
locations will be educated on the direction in which supplies need to be pulled.
Monitoring will be conducted by the Team monthly and findings will be summarized and
reported to Quality Council quarterly.

The medication expiration surveillance program will be strengthened to include
documentation of the findings and corrective actions of medication rounds. Findings will
be reported to the Quality Council quarterly.

Recommendation 6. We recommended that all emergency exits on the locked MH unit
be alarmed.

Concur

Target date for completion: March 10, 2014


VA OIG Office of Healthcare Inspections                                                       24
                                CAP Review of the VA Loma Linda Healthcare System, Loma Linda, CA


Facility response: The facility has completed the installation of alarms on the
emergency exits of the locked mental health unit.

Recommendation 7. We recommended that processes be strengthened to ensure that
clinicians provide discharge instructions to patients and/or caregivers and document this
in the EHRs and that they validate patients’ and/or caregivers’ understanding of the
discharge instructions they provided and that compliance be monitored.

Concur

Target date for completion: July 31, 2014

Facility response: The Facility will strengthen the discharge instruction process by
completing the following:

   1. Revising the Continuity of Care Policy to include more detailed information
      regarding the facility’s expectation of providing discharge instructions to the
      patient or their caregiver.     The policy will include the requirement for
      documenting in the EHR that the instructions were given and that the
      patient/caregiver verbalizes understanding of the information.

   2. The EHR Discharge Template will include questions prompting the Nursing Staff
      to document that the instructions were given and that the patient/caregiver
      verbalizes understanding of the information.

   3. The Initial Nursing Assessment and daily documentation note templates will be
      revised to contain a “Readiness to Learn” assessment.

Compliance will be monitored through EHR reviews monthly and will be reported to
Quality Council monthly for oversight.

Recommendation 8. We recommended that processes be strengthened to ensure that
patients receive ordered aftercare services.

Concur

Target date for completion: July 31, 2014

Facility response: The facility will strengthen the process of ensuring that patients
receive ordered aftercare services by completing the following:

   1. The inpatient Care Managers will document on the Inpatient Care Manager
      Template a summary of all recommended aftercare services and/or items. The
      Outpatient Care Manager will receive a “view alert” when the discharge
      documentation is completed. The Outpatient Care Manager will follow-up on
      outstanding ordered aftercare services.




VA OIG Office of Healthcare Inspections                                                       25
                                CAP Review of the VA Loma Linda Healthcare System, Loma Linda, CA


   2. The Inpatient Care Manager will initiate scheduling for recommended follow-up
      appointments, when appropriate, prior patient’s discharge.

   3. The Case Managers will be trained on the new process.

Compliance will be monitored through a review of the EHR on a monthly basis and
reported to Quality Council for oversight.

Recommendation 9. We recommended that the annual staffing plan reassessment
process ensures that unit 2NE’s and unit 4SW’s unit-based expert panels include all
required members and that all members of the unit-based expert panels receive the
required training prior to the next annual staffing plan reassessment.

Concur

Target date for completion: July 31, 2014

Facility response: Staffing Methodology reassessments will be performed on acute
care and Community Living Center units. Unit-based expert panel members will be
selected using a voluntary application process signed off by the nurse manager and
ACNS. The managers will select, at minimum, one person representing each of the
nursing roles employed on the unit. The list of panel members and their nursing role will
be provided to the Staffing Methodology Coordinator.

Each member of the unit-based panel will complete full TMS training and provide a TMS
certificate to the Nurse Manager prior to the first meeting of the panel. Panel members
who have previously completed the TMS training will provide their certificates to the
Nurse Manager. The Nurse Managers will provide all certificates to the Staffing
Methodology Coordinator.

Recommendation 10. We recommended that nurse managers reassess the target
nursing hours per patient day for unit 2NE to more accurately plan for staffing and
evaluate the actual staffing provided.

Concur

Target date for completion: July 31, 2014

Facility response: As described above, a Staffing Methodology reassessment will be
performed on 2NE. Appropriate NHPPD targets will be determined. A calculator tool
will be utilized to track the NHPPD being provided on 2NE. The Nurse Manager,
Nursing Officer of the Day, and Staffers will use the target NHPPD for 2NE to guide the
nurse staffing of the unit.

The Nurse Manager will track the adequacy of 2NE staffing on a daily basis. The Nurse
Manager will monitor the occurrence of staffing levels outside the targets on a monthly
basis and provide a variance report to their respective ACNS as to why staffing is
outside specified methodology.


VA OIG Office of Healthcare Inspections                                                       26
                                CAP Review of the VA Loma Linda Healthcare System, Loma Linda, CA


All managers will present staffing methodology compliance to facility expert panel
quarterly.

There has been a recent change in the 2NE leadership, which may have an impact in
NHPPD target in the future.

Recommendation 11. We recommended that processes be strengthened to ensure
that acute care staff perform and document a patient skin inspection and risk scale upon
transfer and that compliance be monitored.

Concur

Target date for completion: September 30, 2014

Facility response: The facility’s Pressure Ulcer Prevention and Management policy will
be strengthened to include parameters for skin and wound assessment criteria. This
criterion will include a skin inspection and risk scale completion upon transfer. The
facility will also conduct nursing education on the revised policy content. The facility will
conduct a monthly EHR review to determine compliance.

Recommendation 12. We recommended that processes be strengthened to ensure
that acute care staff accurately document location, stage, risk scale score, and date
pressure ulcer acquired for all patients with pressure ulcers and that compliance be
monitored.

Concur

Target date for completion: September 30, 2014

Facility response: The facility will re-educate the acute care RN and LVN nursing staff
on accurately documenting the location, stage, risk scale score, and date the pressure
ulcer was acquired. Newly hired RN and LVN Nursing employees will continue to
participate in the mandatory 8 hour Wound Care Workshop. RN and LVN nursing staff
identified to be noncompliant will be referred back for remedial training and may be
subject to disciplinary action. The facility will conducted follow-up EHR reviews each
month to determine compliance.

Recommendation 13. We recommended that processes be strengthened to ensure
that acute care staff provide and document pressure ulcer education for patients at risk
for and with pressure ulcers and/or their caregivers and that compliance be monitored.

Concur

Target date for completion: September 30, 2014




VA OIG Office of Healthcare Inspections                                                       27
                                CAP Review of the VA Loma Linda Healthcare System, Loma Linda, CA


Facility response: The facility will revise the Skin Assessment Template by adding the
patient/caregiver learning responses. The EHR will be audited to determine compliance
with the documentation of the patient/caregiver learning responses for patients that are
at risk for and that have pressure ulcers.

Recommendation 14. We recommended that processes be strengthened to ensure
that designated employees receive training on how to administer the pressure ulcer risk
scale, how to conduct a complete skin assessment, and how to accurately document
findings, and that compliance be monitored.

Concur

Target date for completion: September 30, 2014

Facility response: The facility will strengthen the mandatory training for acute care RN
and LVN nursing staff that will include the following:

   1. 	 New RN and LVN employees will continue to spend 8 hours with the Wound
       Care Nurse. All RN and LVN nursing employees will be sent for remedial training
       should the EHR reviews indication deficiency in documentation.

   2. An automated mandatory annual training (TMS) will be developed that will
      include all requirements for assessment and documentation indicated in the local
      policy and VHA Directive. A post-test will be included at the end of the annual
      (TMS) training.

       This TMS training will be in addition to the existing annual competency training
       and will alternate with the annual competency training every 6 months. A post-
       test will be developed for the existing annual competency training.

   3. The Wound Care Team will conduct additional training for the unit Nurse
      Managers and Unit Champions so they can assess on a day to day basis the
      care that is being given and documented for patients that are at high risk and/or
      have pressure ulcers.

Compliance will be monitored by EHR reviews monthly and reported to Quality Council
for oversight.

Recommendation 15. We recommended that processes be strengthened to ensure
that staff complete and document restorative nursing services according to clinician
orders and/or residents’ care plans and that compliance be monitored.

Concur

Target date for completion: August 30, 2014




VA OIG Office of Healthcare Inspections                                                       28
                                CAP Review of the VA Loma Linda Healthcare System, Loma Linda, CA


Facility response: The CLC Leadership has developed the following plan to ensure
that staff complete and document restorative nursing services according to clinician
orders and/or resident’s care plans.

Each night, the RN completes a 24 hour chart check to validate that the orders were
verified and placed on the Care Plan. To assure that staff is providing care as ordered
a weekly peer review audit of restorative nursing care documentation will be performed
by the Resident Assessment Coordinator (RAC). Those audited will be the residents
scheduled for weekly Care Planning. VA Loma Linda will coordinate with other medical
centers within the VISN to participate in completing a peer review on the MDS reviews
conducted by the RAC to establish inter-rater reliability.




VA OIG Office of Healthcare Inspections                                                       29
                                CAP Review of the VA Loma Linda Healthcare System, Loma Linda, CA
                                                                                      Appendix E


                 OIG Contact and Staff Acknowledgments
Contact                 For more information about this report, please contact the OIG
                        at (202) 461-4720.
Onsite                  Yoonhee Kim, PharmD, Team Leader
Contributors            Daisy Arugay, MT
                        Donald Braman, RN
                        Lin Clegg, PhD
                        Simonette Reyes, RN
                        Kathleen Shimoda, RN
                        Jovie Yabes, RN
                        Rebeccalynn Staples, Resident Agent in Charge, Office of
                           Investigations
Other                   Elizabeth Bullock
Contributors            Shirley Carlile, BA
                        Paula Chapman, CTRS
                        Marnette Dhooghe, MS
                        Matt Frazier, MPH
                        Jeff Joppie, BS
                        Victor Rhee, MHS
                        Jackelinne Melendez, MPA
                        Patrick Smith, M. Stat
                        Julie Watrous, RN, MS
                        Jarvis Yu, MS




VA OIG Office of Healthcare Inspections                                                       30
                                CAP Review of the VA Loma Linda Healthcare System, Loma Linda, CA
                                                                                      Appendix F


                                   Report Distribution
VA Distribution

Office of the Secretary
VHA
Assistant Secretaries
General Counsel
Director, Desert Pacific Healthcare Network (10N22)
Director, VA Loma Linda Healthcare System (605/00)

Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
Senate Committee on Homeland Security and Governmental Affairs
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget
U.S. Senate: Barbara Boxer, Dianne Feinstein
U.S. House of Representatives: Ken Calvert, Paul Cook, Gloria Negrete McLeod,
 Gary Miller, Raul Ruiz, Mark Takano


This report is available at www.va.gov/oig.




VA OIG Office of Healthcare Inspections                                                       31
                                       CAP Review of the VA Loma Linda Healthcare System, Loma Linda, CA
                                                                                             Appendix G

                                                  Endnotes

1
    References used for this topic included:
	 VHA Directive 2009-043, Quality Management System, September 11, 2009.
	 VHA Handbook 1050.01, VHA National Patient Safety Improvement Handbook, March 4, 2011.
	 VHA Directive 2010-017, Prevention of Retained Surgical Items, April 12, 2010.
	 VHA Directive 2010-025, Peer Review for Quality Management, June 3, 2010.
	 VHA Directive 2010-011, Standards for Emergency Departments, Urgent Care Clinics, and Facility Observation
    Beds, March 4, 2010.
	 VHA Directive 2009-064, Recording Observation Patients, November 30, 2009.
	 VHA Handbook 1100.19, Credentialing and Privileging, October 15, 2012.
	 VHA Directive 2008-063, Oversight and Monitoring of Cardiopulmonary Resuscitative Events and Facility
    Cardiopulmonary Resuscitation Committees, October 17, 2008.
	 VHA Handbook 1907.01, Health Information Management and Health Records, September 19, 2012.
	 VHA Directive 6300, Records Management, July 10, 2012.
	 VHA Directive 2009-005, Transfusion Utilization Committee and Program, February 9, 2009.
	 VHA Handbook 1106.01, Pathology and Laboratory Medicine Service Procedures, October 6, 2008.
2
    References used for this topic included:
	 VHA Directive 1105.01, Management of Radioactive Materials, October 7, 2009.
	 VHA Directive 2011-007, Required Hand Hygiene Practices, February 16, 2011.
	 VHA Handbook 1105.04, Fluoroscopy Safety, July 6, 2012.
	 VHA Handbook 1160.01, Uniform Mental Health Services in VA Medical Centers and Clinics,
    September 11, 2008.
	 VA Radiology, “Online Guide,” http://vaww1.va.gov/RADIOLOGY/OnLine_Guide.asp, updated
    October 4, 2011.
	 VA National Center for Patient Safety, “Privacy Curtains and Privacy Curtain Support Structures (e.g., Track and
    Track Supports) in Locked Mental Health Units,” Patient Safety Alert 07-04, February 16, 2007.
	 VA National Center for Patient Safety, “Multi-Dose Pen Injectors,” Patient Safety Alert 13-04, January 17, 2013.
	 VA National Center for Patient Safety, Mental Health Environment of Care Checklist (MHEOCC),
    April 11, 2013.
	 Deputy Under Secretary for Health for Operations and Management, “Mitigation of Items Identified on the
    Environment of Care Checklist,” November 21, 2008.
	 Deputy Under Secretary for Health for Operations and Management, “Change in Frequency of Review Using the
    Mental Health Environment of Care Checklist,” April 14, 2010.
	 Deputy Under Secretary for Health for Operations and Management, “Guidance on Locking Patient Rooms on
    Inpatient Mental Health Units Treating Suicidal Patients,” October 29, 2010.
	 Various requirements of The Joint Commission, the Occupational Safety and Health Administration, the National
    Fire Protection Association, the Health Insurance Portability and Accountability Act, the American College of
    Radiology Practice Guidelines and Technical Standards, Underwriters Laboratories.
3
   References used for this topic included:
	 VHA Handbook 1108.06, Inpatient Pharmacy Services, June 27, 2006.
	 VHA Handbook 1108.05, Outpatient Pharmacy Services, May 30, 2006.
	 VHA Directive 2011-012, Medication Reconciliation, March 9, 2011.
	 VHA Handbook 1907.01.
	 Manufacturer’s instructions for Cipro® and Levaquin®.
	 Various requirements of The Joint Commission.
4
   References used for this topic included:
	 VHA Handbook 1120.04, Veterans Health Education and Information Core Program Requirements,
    July 29, 2009.
	 VHA Handbook 1907.01.
	 The Joint Commission, Comprehensive Accreditation Manual for Hospitals, July 2013.
5
   The references used for this topic were:
	 VHA Directive 2010-034, Staffing Methodology for VHA Nursing Personnel, July 19, 2010.
	 VHA “Staffing Methodology for Nursing Personnel,” August 30, 2011.



VA OIG Office of Healthcare Inspections                                                                             32
                                       CAP Review of the VA Loma Linda Healthcare System, Loma Linda, CA



6
    References used for this topic included:
	 VHA Handbook 1180.02, Prevention of Pressure Ulcers, July 1, 2011 (corrected copy).
	 Various requirements of The Joint Commission.
	 Agency for Healthcare Research and Quality Guidelines.
	 National Pressure Ulcer Advisory Panel Guidelines.
	 The New York State Department of Health, et al., Gold STAMP Program Pressure Ulcer Resource Guide,
   November 2012.
7
  References used for this topic included:
	 VHA Handbook 1142.01, Criteria and Standards for VA Community Living Centers (CLC), August 13, 2008.
	 VHA Handbook 1142.03, Requirements for Use of the Resident Assessment Instrument (RAI) Minimum Data Set
   (MDS), January 4, 2013.
	 Centers for Medicare and Medicaid Services, Long-Term Care Facility Resident Assessment Instrument User’s
   Manual, Version 3.0, May 2013.
	 VHA Manual M-2, Part VIII, Chapter 1, Physical Medicine and Rehabilitation Service, October 7, 1992.
	 Various requirements of The Joint Commission.




VA OIG Office of Healthcare Inspections                                                                    33
